DEPARTMENT OF HOMELAND SECURITY

   Office of Inspector General


      U.S. Immigration and Customs 

               Enforcement 

          Visa Security Program 





OIG-08-79                       July 2008
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                     July 24, 2008


                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the management, value added, and expansion of the U.S.
Immigration and Customs Enforcement Visa Security Program. It is based on interviews
with employees and officials of relevant agencies, direct observations, and a review of
applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is
our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the
preparation of this report.




                                     Richard L. Skinner 

                                     Inspector General 

Table of Contents/Abbreviations 


Executive Summary ...................................................................................................................1 


Background ................................................................................................................................2 


Results of Review ......................................................................................................................9 


     Law Enforcement Expertise and Resources Add Layer of Security to Visa Process..........9 


     Risk-based Framework Prioritizes Visa Security Program Expansion Efforts .................14 


     Visa Security Program Management Should Enhance Performance Measurement .........21 


     Visa Security Officer Training Prepares Agents for Deployment .....................................26 


Management Comments and OIG Analysis ............................................................................28 


Appendices
     Appendix A:            Purpose, Scope, and Methodology.............................................................36 

     Appendix B:            Management Comments to the Draft Report .............................................37 

     Appendix C:            Department of State Comments to the Draft Report..................................42 

     Appendix D:            Major Contributors to this Report..............................................................52 

     Appendix E:            Report Distribution ....................................................................................53 


Abbreviations
     ARSO–I                 Assistant Regional Security Officer–Investigations

     DHS                    Department of Homeland Security 

     DOS                    Department of State 

     FLETC                  Federal Law Enforcement Training Center 

     FY                     Fiscal Year     

     ICE                    U.S. Immigration and Customs Enforcement 

     NSDD–38                National Security Decision Directive–38 

     OIA                    Office of International Affairs 

     OIG                    Office of Inspector General 

     SAO                    Security Advisory Opinion 

     TECS                   Treasury Enforcement Communications System

     VSP                    Visa Security Program

     VSU                    Visa Security Unit 

OIG 

Department of Homeland Security
Office of Inspector General


Executive Summary

                  The Visa Security Program was established in the Homeland
                  Security Act of 2002 to increase the security of the visa process at
                  U.S. embassies and consulates. The program enhances national
                  security by preventing terrorists, criminals, and other ineligible
                  applicants from receiving visas, and maximizing the visa process
                  as a counterterrorism tool. We reviewed U.S. Immigration and
                  Customs Enforcement (ICE) management of the program, the
                  coordination between ICE special agents and Department of State
                  officers overseas, and how the addition of ICE special agents has
                  affected visa security. We also reviewed expansion plans and
                  predeployment training.

                  The program assigns experienced special agents to Visa Security
                  Units overseas to review visa applications, initiate investigations,
                  and provide advice and training to consular officers. Agents bring
                  valuable resources to posts and add a layer of security to the visa
                  process.

                  ICE is improving its management of the program continually. For
                  example, officials developed a risk-based framework to prioritize
                  program expansion and site selection. In addition, they developed
                  automated tools to facilitate some program activities and limit the
                  amount of manual data entry performed by agents. Program
                  managers also constantly update the program’s training course to
                  keep up with changing trends and address participant suggestions.

                  However, some program areas could be improved. We are
                  recommending that program managers enhance recording,
                  tracking, monitoring, verification, analysis, and reporting of visa
                  security activities in the current tracking system while developing
                  a new tracking system. In addition, program managers must
                  provide training and guidance to field personnel on new
                  procedures and document the program’s training course
                  curriculum. ICE agreed with our findings and concurred with our
                  recommendations.


             U.S. Immigration and Customs Enforcement Visa Security Program 


                                         Page 1

Background
        Foundation for the Visa Security Program
                 Nineteen terrorists applied for and obtained legitimate U.S. visas in the
                 months prior to September 11, 2001, facilitating their entry into the United
                 States. The resulting events of 9/11 illustrate the importance of a secure
                 visa process to our national security. The Visa Security Program (VSP)
                 was established to increase the security of the visa process.

                 Section 428 of the Homeland Security Act of 2002 authorizes the Secretary
                 of Homeland Security to issue regulations, administer, and enforce
                 immigration and nationality laws relating to visas, and to refuse individual
                 visas according to law.1 In addition, Section 428 authorizes the Secretary
                 to assign Department of Homeland Security (DHS) personnel to visa
                 issuing diplomatic posts to review individual visa applications, initiate
                 investigations of visa security-related matters, and provide advice and
                 training to consular officers.2 Section 428 specifically requires that DHS
                 personnel be assigned to Saudi Arabia to review all visa applications
                 submitted in Saudi Arabia prior to adjudication.3 VSP began operations in
                 Saudi Arabia in October 2003.

                 Pursuant to Section 428, DHS and Department of State (DOS) developed a
                 memorandum of understanding concerning Section 428 implementation.
                 The September 2003 memorandum delineates the roles and
                 responsibilities of the departments regarding the visa issuance process and
                 visa security activities, as well as the coordination between the two at
                 overseas posts.


        History of the Visa Security Program
                 DHS created a Visa Security Unit (VSU) within its Border and
                 Transportation Security Directorate to implement and manage Section 428
                 requirements. On October 31, 2003, DHS announced the reorganization
                 of its international activities, including the establishment of an Office of
                 International Affairs (OIA) within ICE. In January 2004, as part of the
                 reorganization, the VSU transferred to ICE OIA and assumed
                 responsibility for the operational requirements of Section 428, including
                 visa security operations both overseas and in the United States.
                 Responsibility for visa policy initially remained with the Border and
1
  P.L. 107-296, Section 428(b)(1)
2
  Section 428 (e)(1) and (e)(2)
3
  Section 428 (i)

                    U.S. Immigration and Customs Enforcement Visa Security Program 


                                                Page 2

     Transportation Security Directorate, but the DHS Directorate of Policy
     assumed this responsibility in 2005 when the DHS Secretary eliminated
     the Border and Transportation Security Directorate.

     ICE OIA initially was established within the ICE Office of Investigations.
     Following an internal ICE reorganization in February 2007, ICE OIA
     moved out of the Office of Investigations and now reports directly to the
     Office of the Assistant Secretary.

     Once the mandated VSU offices in Saudi Arabia were open, managers
     assessed other potential overseas locations for program expansion. Senior
     DOS officials at some posts approved establishing a VSU at their post;
     others resisted. Program expansion in 2004 also was retarded by
     insufficient appropriated funds. In October 2005, VSUs were established
     in Manila, Philippines; Abu Dhabi and Dubai in the United Arab Emirates;
     and Islamabad, Pakistan. VSU Cairo began operations in Egypt in
     January 2007. VSU operations began in Caracas, Venezuela, and
     Montreal, Canada, in March and May 2007, respectively. VSU Hong
     Kong was established in China in September 2007. In November 2007,
     VSU operations began in Casablanca, Morocco.


Visa Security Program Operations
     The VSP mission is to enhance national security and public safety by
     preventing terrorists, criminals, and other ineligible applicants from
     receiving U.S. visas, and maximizing the visa process as a
     counterterrorism tool. The program’s goals include:

        1) Preventing known threats to national security from exploiting the
           visa process;
        2) Identifying “not yet known” threats to national security—threats
           that do not appear in any government databases or watchlists;
        3) Applying law enforcement expertise and capabilities to the visa
           process;
        4) Identifying and addressing systemic threats and vulnerabilities in
           the visa process; and,
        5) Supporting the timely processing of visas for legitimate applicants.

     VSP accomplishes these goals by assigning ICE special agents with
     expertise in immigration law and counterterrorism to visa issuing U.S.
     diplomatic posts overseas to perform visa security activities. While DOS
     consular officers continue to adjudicate all visa applications, the VSP
     complements the DOS visa screening process with law enforcement
     resources not available to consular officers to ensure ineligible applicants
     do not receive U.S. visas.

       U.S. Immigration and Customs Enforcement Visa Security Program 


                                   Page 3

The primary visa security activity conducted by ICE special agents
assigned to VSUs is the screening and vetting of visa applicants to
determine the applicant’s risk profile and visa eligibility. Screening is a
largely automated process of checking applicant biographic information
against the Treasury Enforcement Communications System (TECS).

TECS is an automated enforcement and inspections system that provides a
large database of information for law enforcement and border inspection
purposes, and serves a case management function for ICE. TECS supports
DHS and other federal users, and can exchange information automatically
with several U.S. government systems, including the DOS Consular
Lookout and Support System. Screening identifies those applicants whose
name or date of birth matches a record in a government database or
watchlist. According to VSP performance data, VSUs screened more than
502,250 visa applicants in Fiscal Year (FY) 2007.

Screened applicants with exact or possible matches are then vetted prior to
determining eligibility for a visa. Vetting involves additional research and
investigation of the visa applicant by an ICE special agent. Vetting could
include conducting more in-depth searches in law enforcement databases
and other information systems, examining documents, interviewing the
applicant, and consulting with consular, law enforcement, or other
officials as needed. Agents assigned to VSUs also might perform in-depth
analysis of the visa applicant and the applicant’s sponsors, associates,
family members, and business. This analysis might involve using a
variety of information systems, investigative tools and techniques, and
collateral requests to domestic ICE offices. In addition to visa applicants
with potential matches, agents also vet some applicants whose names did
not match watchlists; these additional vettings are based on post-specific
case selection guidelines. According to VSP performance data, VSUs
vetted more than 135,500 visa applicants in FY 2007.

In addition to screening and vetting visa applicants, ICE special agents
assigned to VSUs initiate investigations of activity involving threats to
national security and immigration fraud, generate leads, and provide
support for domestic ICE investigations. Participation in law enforcement
and other working groups at post provides a forum for ICE special agents
to disseminate information on threats, trends, and intelligence to other law
enforcement and intelligence agencies at post. ICE special agents also
conduct liaison with host country law enforcement officials to share and
receive information.

As required by Section 428, ICE special agents assigned to VSUs provide
advice and training to consular officers about security threats relating to
the adjudication of visa applications. Several VSU officials said that most

  U.S. Immigration and Customs Enforcement Visa Security Program 


                              Page 4

     of this advice and training occurs informally as consular officers consult
     with ICE special agents on individual visa applications. ICE special
     agents assigned to VSUs provide interpretation and expertise in
     responding to questions regarding an applicant’s eligibility for a visa,
     which enhances the consular officer’s ability to identify threats when
     adjudicating visas.

     In addition to informal discussions with consular officers, ICE special
     agents assigned to VSUs identify and monitor the threat environment and
     trends in the visa applicant pool specific to their post and host country.
     They then develop formal, targeted training and briefings to inform
     consular officers and others about threats to the visa process. Examples of
     topics covered in these briefings include fraud trends in specific visa
     categories and how to identify fraudulent documents and imposters. Non-
     consular embassy personnel, host country airport officials, and others also
     benefit from this advice and training. According to VSP performance
     data, VSUs conducted 83 formal training sessions for consular officers,
     non-consular embassy personnel, and others in FY 2007.


Coordination with the Department of State
     VSP officials regularly interact and coordinate with DOS officials at
     headquarters and overseas posts during the program expansion and site
     selection process and when establishing new VSUs. Interaction also
     occurs in the course of conducting day-to-day visa security operations.

            Bureaus of Consular Affairs and Diplomatic Security

            The Bureau of Consular Affairs is responsible for visa operations,
            the welfare and protection of U.S. citizens abroad, issuing
            passports to citizens, protecting U.S. border security, and
            facilitating legitimate travel to the United States. Consular officers
            overseas are responsible for issuing nonimmigrant and immigrant
            visas. More than 6.4 million nonimmigrant visas and
            approximately 431,000 immigrant visas were issued in FY 2007.

            The Office of Consular Fraud Prevention Programs formulates,
            coordinates, and promulgates policies and practices related to
            passport and visa anti-fraud programs. The Consular Fraud
            Prevention Program directs the consular anti-fraud program and
            develops and provides anti-fraud training for passport agents,
            consular officers, DHS, and representatives of other federal
            agencies. The program also provides instruction for consular
            officers in visa sections abroad on the operational aspects of the
            fraud function.

       U.S. Immigration and Customs Enforcement Visa Security Program 


                                   Page 5

     The Bureau of Diplomatic Security is the security and law
     enforcement arm of DOS. The Diplomatic Security Criminal
     Investigative Division conducts criminal investigations of visa and
     passport fraud, both domestically and abroad. These federal
     felonies are often committed in connection with more serious
     crimes, such as international terrorism, narcotics trafficking,
     organized crime, alien smuggling, money laundering, pedophilia,
     and murder. Countless people attempt to obtain U.S. visas
     illegally each year. Diplomatic security investigates and
     coordinates international visa fraud cases including fraudulent
     issuance, procurement, counterfeiting, and forgery of U.S. visas.
     Diplomatic security works closely with consular affairs on visa
     fraud cases.

     The Diplomatic Security Overseas Criminal Investigator Program
     has placed 33 special agents at embassies abroad specifically to
     conduct passport and visa fraud investigations. A 2004
     memorandum of understanding between consular affairs and
     diplomatic security covers their work. Agents, known as Assistant
     Regional Security Officers–Investigations, or ARSO–Is, are
     assigned to those embassies where high volumes of fraudulent
     documents have been detected. Their mission includes
     investigating visa and passport fraud in order to protect the visa
     adjudication process by disrupting criminal and terrorist mobility.

     Working with Consular Officers at Overseas Posts

     The consular section of U.S. embassies and consulates is
     responsible for adjudicating visa applications and issuing visas to
     non-U.S. citizens who need a visa to travel to the United States. In
     processing a visa application, consular officers review the
     application, conduct automated name checks against watchlists of
     known terrorist or criminal suspects, obtain fingerprints, and
     interview the visa applicant. The consular officer then decides to
     approve or deny the application, or to request additional security
     checks or information before adjudicating the application.

     ICE special agents assigned to VSUs conduct visa security
     activities in addition to the consular process. When establishing a
     VSU at an overseas post, VSP officials work closely with consular
     officials to determine how best to incorporate VSU activities into
     the visa process while minimizing their effect on the flow of the
     issuance process. The logistics of the consular visa process can
     vary slightly by post depending on several factors, including the
     volume or type of visa applications or the number of available

U.S. Immigration and Customs Enforcement Visa Security Program 


                            Page 6

     consular officers. Therefore, VSUs remain flexible and work with
     each individual post to coordinate the optimal procedures and
     timing for performing visa security activities as well as receiving
     referrals regarding individual visa applicants from consular
     officers.

     ICE special agents assigned to VSUs also coordinate with the
     consular section’s designated fraud prevention manager. At many
     posts, fraud prevention responsibilities are a collateral duty
     assigned to a consular officer at post; other posts have full-time
     fraud prevention managers, or fraud prevention units, who
     concentrate on detecting fraud in visa applications. If a consular
     officer or fraud prevention manager suspects a fraud case could
     have links to terrorism, the case is referred to the VSU. In
     addition, if the VSU investigates such a case and determines it
     involves fraud but no links to terrorism, the VSU returns the case
     to the consular section for further fraud investigation by the fraud
     prevention manager.

     The Security Advisory Opinion Process

     Consular officers perform additional security checks—called
     Security Advisory Opinions (SAO)—prior to adjudicating
     applications that meet specific criteria for extra scrutiny. The SAO
     process is a multi agency review process managed by DOS.
     Consular officers electronically submit requests to DOS for a
     specific type of SAO. Depending on the type of SAO requested,
     the request is forwarded to other government agencies, such as the
     Federal Bureau of Investigation or Central Intelligence Agency.
     After running name checks on the applicant, the respective
     agencies provide the resulting information to DOS for a
     determination on whether the applicant should be granted a visa.
     Currently, VSP headquarters is involved in the SAO process when
     DOS disagrees with another agency’s determination regarding the
     applicant. In these cases, VSP headquarters reviews the
     information and acts as a mediator to reach a resolution on the
     applicant’s eligibility for a visa.

     In May 2007, Congress appropriated funds to the VSP to establish
     an SAO review unit within VSP headquarters. VSP management
     officials currently are assessing how best to incorporate VSP more
     fully into the SAO process.




U.S. Immigration and Customs Enforcement Visa Security Program 


                            Page 7

     Working with Diplomatic Security at Overseas Posts

     The Bureau of Diplomatic Security is the security and law
     enforcement arm of DOS. Diplomatic security protects people,
     facilities, and information at U.S. diplomatic posts around the
     world and at domestic DOS locations. Regional security officers
     coordinate each post’s Law Enforcement Working Group.
     Diplomatic security agents conduct a variety of investigations
     including investigations of passport and visa fraud. Under the
     ARSO-I program, diplomatic security assigns ARSO–Is to conduct
     passport and visa fraud investigations in consular sections at posts
     with high occurrences of fraudulent travel documents.

     DOS officials said that ARSO–Is usually investigate suspected
     fraud rings or criminal enterprises. If an ARSO–I suspects a link
     to terrorism and there is a VSU at post, the ARSO–I coordinates
     with the VSU for further investigation of the potential terrorism
     aspects of the case. In these types of cases, the VSU and ARSO–I
     might conduct a joint investigation under their respective
     authorities in a task force-like effort.

     Approval of Permanent Positions at Overseas Posts

     Through the National Security Decision Directive–38 (NSDD–38)
     process, DOS chiefs of mission consider VSP requests to establish
     permanent positions at overseas posts. The NSDD-38 process is
     an important tool DOS uses to regulate the size of the staffs at
     embassies. It requires agencies proposing changes in the size,
     composition, or mandate of their staffs to take a “lean approach”
     that aligns with the embassy’s performance plan goals, security
     situation, attendant costs, and administrative support implications.
     DOS evaluates several factors, including whether adding DHS
     personnel at post is necessary to perform the job, the availability of
     both classified and unclassified office space, and personnel
     security. VSP officials receive an indication of the likelihood of
     the chief of mission approving an NSDD–38 request during
     consultations with DOS officials during the VSP site selection
     process.

     If approval of a new VSU at a post is deemed to be likely, DHS
     approves the proposed VSP positions and submits a formal
     NSDD–38 application to the DOS Office of Management and
     Rightsizing. The chief of mission then has 21 days to consider and
     respond to the NSDD–38 request. We were told DOS responds to
     approximately 25% of ICE NSDD–38 requests within 21 days.


U.S. Immigration and Customs Enforcement Visa Security Program 


                            Page 8

                 ICE interacts with DOS during the NSDD–38 process to respond
                 to questions or provide additional information.


Results of Review
     Law Enforcement Expertise and Resources Add Layer of Security
     to Visa Process
          Incorporating regular law enforcement screening and vetting of visa
          applicants into the visa process adds an additional layer of security to the
          DOS consular visa adjudication process. Consular officers interview visa
          applicants to verify and complete information on applications, conduct
          automated name checks against watchlists of known terrorists and
          criminals, and obtain fingerprints and a digital photograph of the
          applicant. The VSP complements these efforts by assigning ICE special
          agents to posts to screen visa applicants and further vet selected applicants
          to identify terrorist or criminal suspects who are “not yet known” or
          identified as such and stop them from reaching the United States.

                 Visa Security Activities Require Agents to Be Present at Post

                 Some DOS headquarters officials have said that ICE special agents
                 do not need to be posted overseas to conduct their visa security
                 activities. The DOS officials said ICE special agents are able to
                 access the law enforcement databases and information systems
                 used in the screening and vetting process remotely.

                 VSP managers said that experienced law enforcement agents
                 assigned overseas provide unique added value at overseas posts.
                 ICE special agents assigned to VSUs use their expertise in
                 immigration and nationality law, investigations, document
                 examination, intelligence research, and counterterrorism to
                 complement the consular visa adjudication process with law
                 enforcement vetting and investigation. In addition, ICE special
                 agents assigned to VSUs at post focus on identifying “not yet
                 known” terrorists and criminal suspects and preventing them from
                 reaching the United States. To perform visa security activities
                 effectively requires ICE special agents to be assigned to overseas
                 posts.

                 While the initial VSU screening process is automated, the vetting
                 process requires a hands-on presence at post. During the vetting
                 process, ICE special agents need access to relevant documents,
                 such as the visa application and passport, as well as financial,

            U.S. Immigration and Customs Enforcement Visa Security Program 


                                        Page 9

     employment, or other supporting documents. For example, three
     long-term residents of a country with a VSU applied for visas to
     visit the United States. Consular and VSU system checks resulted
     in no alerts on the applicants. An ICE special agent assigned to a
     VSU reviewed the visa application packages, including
     employment records, and determined that the applicants had
     merged their personal bank accounts with their employer’s bank
     account. Through further investigation, the agent identified a link
     from the employer to a company identified by the Department of
     Treasury’s Office of Foreign Assets Control as a Specially
     Designated Global Terrorist and Foreign Terrorist Organization.
     Because an agent was assigned to the VSU at post, a potential
     terrorism link was identified, the applicants’ visas were denied,
     and further investigation could be performed to identify other
     related companies.

     In addition to the visa application package, ICE special agents
     assigned to VSUs at overseas posts have access to the visa
     applicant in order to conduct a law enforcement interview. An
     agent might decide to interview a visa applicant to verify or
     expand on specific details of the application, or because the
     applicant might be able to provide additional information for an
     ongoing investigation. For example, an applicant applied for a
     student visa at a VSU post, and based on available information, the
     consular officer initially approved the application. Because the
     applicant fit VSU post-specific case selection criteria, the agent
     thoroughly vetted and interviewed the applicant. The interview of
     the applicant provided information on the applicant’s uncle, who
     was a subject of a Joint Terrorism Task Force investigation. On
     the pretense of establishing the applicant’s eligibility for a student
     visa, the ICE special agent interviewed the uncle. Because the
     VSU was at post, new information was provided for the Joint
     Terrorism Task Force investigation, and as a result of the agent’s
     recommendation, the applicant’s student visa application was
     denied by the consular officer.

     Other VSU activities also require that ICE special agents be
     assigned to VSUs at overseas posts. Agents must be in the host
     country to appreciate fully the local threat conditions. Agents use
     their experience, as well as consultations with consular officers,
     other law enforcement or intelligence officials at post, and host
     country officials to identify and monitor threats, trends, and tactics.
     In addition, ICE special agents assigned to VSUs receive non-visa
     special requests to perform basic screening and vetting of
     individuals who are not visa applicants. These special requests
     could come from other DHS components, the DOS Regional

U.S. Immigration and Customs Enforcement Visa Security Program 


                           Page 10

     Security Officer, or other officials at post. ICE special agents at
     posts also have cleared derogatory information on some visa
     applicants, allowing their visas to be approved.

     ICE special agents assigned to VSUs at overseas posts have
     produced a variety of visa security results. As a result of screening
     and vetting activities, agents recommended denial of 750 visa
     applications in FY 2007. Agents also identified 49 “not yet
     known” terrorists and created 68 watchlist nominations, 933
     lookouts, and 557 subject records in FY 2007. The following table
     provides a breakdown of selected VSU results for each post for FY
     2007.

                           Selected FY 2007 Post-by-Post VSU Results
                                          “Not Yet                                Subject
                      Recommended Knowns”                Watchlist   Lookouts Records
          Post            Denials2        Identified Nominations Created Created
      Abu Dhabi                     95              0              1        101        59
      Cairo1                       263              0              0         20        31
      Caracas1                      16              0              0         18        31
      Dubai                         35              0              0         41        16
      Islamabad                       5             3            18         235       133
      Manila                       283             37            41         395        96
      Montreal1                     14              1              0          6        29
      Riyadh                        39              8              8        117       162
      Totals                       750             49            68         933       557
      1
        Totals for these posts do not include all of FY 2007. VSU operations began in
      Cairo, Caracas, and Montreal in January, March, and May 2007, respectively.
      2
        Includes Prescreen, SAO, and Post-Adjudication VSU Recommended Denials.

     Visa Security Units Bring Valuable Resources to Consular
     Officers

     Consular officers have access to two key DOS information
     systems, the Consular Consolidated Database and the Consular
     Lookout and Support System, which they use during the visa
     adjudication process. However, they do not have access to the
     principal DHS law enforcement information system, TECS. ICE
     special agents assigned to VSUs bring access to DHS and other
     law enforcement systems—which often contain sensitive law
     enforcement information, including information related to ongoing
     investigations—to post. Agents provide information, as well as
     interpretation of the information, from these systems to assist
     consular officers in making an adjudication decision.

     Some of the potentially derogatory information in TECS
     automatically replicates into the DOS Consular Lookout and
     Support System. Consular officers receive alerts when an

U.S. Immigration and Customs Enforcement Visa Security Program 


                           Page 11

     applicant’s name, date, and place of birth or passport number, date,
     and place of issue appear to be sufficiently similar to data in their
     lookout system. These applications then receive additional
     scrutiny to resolve the eligibility issues that pertain to the
     information. Both ICE and DOS officials said that consular
     officers regularly consult with agents regarding information they
     find on individual applicants. ICE special agents assigned to
     VSUs interpret and explain for consular officers the law
     enforcement-related alerts that occur, and can often further
     investigate a specific visa applicant at the request of a consular
     officer.

     Consular and other DOS officials at posts we visited said they
     were glad to have ICE special agents assigned to VSUs at their
     posts. Many said they were initially concerned that agents would
     be looking over the shoulders of consular officers and checking
     their work. However, they said they were pleasantly surprised to
     discover that this was not the case and that agents bring additional
     resources to post to support existing consular operations. Several
     consular officials said that ICE special agents assigned to VSUs
     add a second line of defense to ensure that terrorists, criminals, and
     other ineligible applicants do not receive U.S. visas.

     DOS officials also said that if consular officers had access to
     TECS and other DHS systems, they would be able to obtain the
     information they need to adjudicate visa applications on their own.
     ICE officials agree that DOS personnel should have access to some
     DHS systems, but said that agents would still be necessary to
     interpret most search results. ICE officials also said that there
     would be sensitivity and disclosure issues involved with giving
     consular officers unrestricted access to DHS systems that include
     information relating to ongoing criminal investigations, and
     information entered by other federal law enforcement agencies.
     With regard to TECS access, a VSP official said that U.S. Customs
     and Border Protection controls access, not ICE, and therefore,
     DOS would need to work with U.S. Customs and Border
     Protection to gain TECS access for consular officers.

     Visa Security Program Is Not Negated by Presence of ARSO–I
     at Post

     A VSU and an ARSO–I can be present at the same post without
     overlapping duties because each has a different mission. VSUs
     focus primarily on counterterrorism; ARSO-Is focus primarily on
     passport and visa fraud. Because terrorists use fraudulent means to
     obtain legitimate travel documents to enter the United States,

U.S. Immigration and Customs Enforcement Visa Security Program 


                           Page 12

     VSUs review suspected fraudulent visa applications to determine
     whether there is a terrorism link, seemingly giving the appearance
     of overlapping responsibilities with the ARSO–I. However, if no
     link to terrorism is identified, VSU and DOS officials said the
     VSU coordinates with the ARSO–I for further fraud investigation.
     Likewise, if an ARSO–I reviewing a suspected fraudulent visa
     application detects a possible terrorism link, the ARSO-I
     coordinates with the VSU for further investigation of the terrorism
     aspect of the case. Both bring their respective expertise and
     resources and, as appropriate, conduct joint investigations.

     At the two VSU posts we visited that also had an ARSO–I, both
     VSU and DOS officials said that there is room for both programs
     and more than enough work for each. VSU and DOS officials at
     one post said that everyone at post “knows their own lane and stays
     in it,” referring cases or conducting joint investigations as
     appropriate. VSP and ARSO–I headquarters management officials
     said they regularly consult regarding overseas operations and
     coordination, and that they support a task force mentality between
     the programs at posts where both are present.

     Another VSU post we visited was expecting the addition of an
     ARSO–I shortly after our visit. Consular officials at that post said
     they were looking forward to having an ARSO–I at post and hoped
     it would reduce some of the basic fraud referrals to the VSU,
     freeing the VSU to focus on counterterrorism efforts. Both VSU
     and DOS officials at the post said they did not expect any problems
     with the VSU and ARSO–I working together.

     Visa Security Program Management Should Analyze
     Performance Measures that Support Need to Assign Agents to
     Overseas Posts

     While ICE special agents need to be present at post to perform visa
     security activities, the connection between the activities they
     perform at post and the results of those activities has not been
     analyzed or demonstrated fully. VSP management should monitor
     and analyze additional performance measures to demonstrate better
     the need to assign agents to overseas posts.

     Technologically, the automated initial screening could be
     conducted remotely; however, ICE special agents would still be
     necessary at posts as described above. The initial visa applicant
     screening begins with importing visa applicant data from the DOS
     Consular Consolidated Database into the VSP Tracking System.
     The VSP Tracking System electronically converts and groups the

U.S. Immigration and Customs Enforcement Visa Security Program 


                           Page 13

            applicant data, which is exported in the new format from the VSP
            Tracking System to TECS for automated screening. ICE special
            agents assigned to the VSU at post then vet the screening results,
            including reviewing the visa application documents or
            interviewing the visa applicant. Agents record their activities in
            the VSP Tracking System, including whether they reviewed visa
            application documents or interviewed the visa applicant.

            Each VSU creates a monthly statistical report of its screening and
            vetting activities from the VSP Tracking System and sends it to
            headquarters for review. However, while agents record whether
            they review visa application documents or interview applicants on
            a worksheet within the VSP Tracking System, these statistics are
            not included in the data sent monthly to VSP headquarters. Also,
            because only aggregate monthly data is sent, VSP headquarters
            does not monitor or analyze the effect of document reviews or
            interviews conducted at post on agent decisions and outcomes,
            such as recommended denials, watchlist nominations, subject
            records, or lookouts. Such analysis could provide both a
            quantitative and qualitative justification for the need to assign ICE
            special agents to VSUs at overseas posts. VSP headquarters could
            then use the results of the analysis during the site selection and
            expansion process with DOS and to support requests for additional
            funding from Congress.

            We recommend that the Assistant Secretary for Immigration and
            Customs Enforcement:

            Recommendation #1: Develop and implement a plan to monitor
            and analyze case-specific visa security activities conducted at post
            and their effect on Visa Security Program results.


Risk-based Framework Prioritizes Visa Security Program
Expansion Efforts
     Expanding VSP to new locations is a priority for VSP management. With
     visas issued at more than 200 U.S. diplomatic posts around the world and
     limited funding and personnel, VSP officials developed a risk-based
     framework to identify the highest risk locations and prioritize deployment
     of VSP resources to new locations. VSP management also focuses on
     selecting the best candidates for overseas assignments. According to the
     VSP Five-Year Expansion Plan, by initially concentrating expansion to the
     highest risk posts, VSP will cover 75% of the highest risk visa activity by
     2013. However, VSP expansion depends on DOS chief of mission


       U.S. Immigration and Customs Enforcement Visa Security Program 


                                  Page 14

approval, and chiefs of mission at some posts have resisted the addition of
a VSU.

       Visa Security Program Follows Risk-based Framework to
       Prioritize and Select Expansion Locations

       The VSP site evaluation process prioritizes program expansion
       based on risk to concentrate expansion to the highest threat
       locations first. The framework for selecting new VSU site
       locations involves four steps:

           1) Performing an initial quantitative risk analysis of all visa-
              issuing posts;
           2) Consulting regularly with DOS, law enforcement, and
              intelligence agencies;
           3) Conducting site assessments of potential sites; and,
           4) Completing a final evaluation of potential sites and site
              selection.

       Initial Risk Analysis

       VSP officials first perform an initial quantitative risk analysis to
       assess the level of risk at each visa issuing post by examining
       several threat and vulnerability factors relevant to the visa security
       mission. These factors include visa activity, corruption, arrests and
       criminal removals by nationality, special interest aliens applying
       for visas, and DOS threat assessments for each post. VSP program
       officials obtain relevant data for each threat and vulnerability
       factor from well-established information sources, such as TECS,
       the Yearbook of Immigration Statistics, or the DOS Consular
       Consolidated Database.

       Because different information sources use different scoring
       systems, ICE adjusts them as appropriate so that a high level of
       threat or vulnerability always receives a high score in the analysis.
       For example, a higher number of arrests for a nationality
       corresponds to a higher threat level for that country, so no
       adjustment is necessary; however, for corruption, a lower score
       corresponds to higher vulnerability, so VSP officials adjust the
       scoring to show high levels of corruption with a high vulnerability
       score. ICE uses the numeric value from the source data or
       converts the source information into numeric values to facilitate
       quantitative analysis.

       For each threat and vulnerability factor, ICE organizes the posts
       into four groups based on the numeric values, with approximately

  U.S. Immigration and Customs Enforcement Visa Security Program 


                             Page 15

     25% of posts being placed in each group. The first group
     represents the highest threat or vulnerability, the second group the
     second highest threat or vulnerability, and so on. ICE then assigns
     each group a numeric value. For example, VSP officials analyze
     the number of arrests for nationals of countries with visa issuing
     posts as one threat factor in the initial risk analysis. VSP officials
     rank the countries by number of arrests from highest to lowest,
     divide them into four groups, and assign each group a numeric
     value. This process is repeated for each threat and vulnerability
     factor in the initial risk analysis. After each threat and
     vulnerability factor is quantitatively analyzed, VSP officials
     aggregate each post’s scores for all factors to determine the overall
     quantitative risk score for each post.

     Using the overall quantitative scores, each post is assigned an
     overall risk rating in one of four groups—critical, high, medium, or
     low. The initial risk analysis provides a basis for VSP
     management to focus in greater detail on posts in the highest risk
     group during the next steps in the site selection process.

     Consultations

     Throughout the site selection process, VSP coordinates with DOS
     officials in consular affairs and diplomatic security, and with other
     law enforcement and intelligence agencies at both headquarters
     and potential VSU posts. These consultations further refine and
     reorder the list of potential sites.

     Site Assessments

     VSP then performs site visits, which provide an opportunity for
     VSP officials to meet with DOS, law enforcement, and other
     members of the embassy community to familiarize them with the
     VSP. VSP officials assess a number of qualitative factors, such as
     whether current conditions at the post support the critical- or high-
     threat level indicated by the initial risk analysis for the post and the
     opportunity to partner with other law enforcement agencies at post.
     In addition, VSP evaluates the logistics of establishing a VSU,
     such as whether the visa security mission can be accomplished
     with limited personnel, consistent with the ICE staffing model and
     DOS staffing concerns, and whether appropriate space is available
     at post. Using professional judgment based on interdepartmental
     consultations and site assessments, VSP officials assign a high,
     medium, or low score to each qualitative factor for the posts
     receiving further consideration. VSP then translates the scores to
     numeric values.

U.S. Immigration and Customs Enforcement Visa Security Program 


                           Page 16

     Final Evaluation and Site Selection

     Finally, VSP evaluates the risk factors and the information
     obtained through consultations and site assessments, both
     individually and as they relate to each other, to determine which of
     the posts under consideration will be proposed for deployment.
     During this final evaluation, VSP also considers the regional need
     for a VSU given the presence of other VSUs in the area and the
     level of interest in a VSU expressed by key DOS officials at each
     post. VSP officials assign these factors a high, medium, or low
     qualitative score, which translate to numeric values for each post.

     VSP officials then sum the overall initial quantitative risk analysis
     score and the numeric values for the qualitative site assessment and
     final evaluation factors to reach a ranking of the narrower list of
     posts under consideration. VSP officials use the final ranking to
     determine which sites will be proposed to the ICE Assistant
     Secretary for possible expansion.

     After the ICE Assistant Secretary approves the proposed sites, ICE
     begins the DHS nomination process, which involves obtaining
     approval from the DHS Chief Financial Office, Office of Policy,
     General Counsel, and Deputy Secretary. ICE then formally
     requests DOS approval of permanent personnel positions at the
     proposed posts using the NSDD–38 process.

     VSP explains the basic site selection process in a number of
     documents, including the Five-Year Expansion Plan. Some
     descriptions are more detailed than others. However, the program
     does not have a detailed, factor-by-factor explanation for the initial
     quantitative risk analysis or qualitative site assessment and final
     evaluation processes. Such an explanation would include the
     source for each factor, how the score for each factor is calculated,
     and, as appropriate, how or why a score is weighted.

     VSP officials document their initial risk analysis, including the
     source data and any calculations or weighting performed to reach
     the individual factor score as well as the overall quantitative risk
     score for each post. In addition, VSP officials document their
     judgment regarding the qualitative site assessment and final
     factors. However, the quantitative analysis, in particular, is
     complex and the documentation can be difficult to follow. In
     addition, agents and other staff rotate in and out of VSP
     headquarters, and responsibility for updating and maintaining the
     initial risk analysis and site selection matrix changes. We believe a

U.S. Immigration and Customs Enforcement Visa Security Program 


                           Page 17

     detailed, factor-by-factor explanation for the quantitative and
     qualitative factors analyzed during the site selection process would
     facilitate information updates to the analysis as well as help
     incoming staff understand the risk assessment and site selection
     process.

     We recommend that the Assistant Secretary for Immigration and
     Customs Enforcement:

     Recommendation #2: Develop a detailed, factor-by-factor
     explanation of the process for analyzing the quantitative and
     qualitative factors in the site selection process from the initial risk
     analysis through site selection, including source(s) for each factor
     and how the score for each factor is calculated.

     VSP officials developed the VSP Five-Year Expansion Plan,
     which explains expected expansion plans for the next 5 years,
     including preliminary budget projections. The ICE Assistant
     Secretary, DHS headquarters, the Homeland Security Council, and
     the Office of Management and Budget have approved the plan. In
     addition, the National Strategy for Homeland Security, issued in
     October 2007, includes expanding law enforcement personnel
     overseas who focus on assessing national security threats and
     fraudulent documents used in the visa application process. VSP
     expansion also is supported in the National Implementation Plan
     for Counterterrorism.

     VSP officials stressed that the VSP Five-Year Expansion Plan is
     dynamic, and that locations identified for expansion in the plan
     could change because the risk environment is constantly changing.
     Several factors will affect program expansion, including the site
     assessment process, DHS nomination of locations to DOS, the
     DOS NSDD–38 process, and the process for deploying officers to
     DOS approved posts. The expansion plan also depends on
     receiving necessary funding. Because of the time and
     interdepartmental coordination involved in VSP expansion, fiscal
     year funds could lapse when deployments are delayed and funds
     are not spent. Therefore, ICE proposed that VSP funding for FY
     2009 and beyond be designated as “no year funds.” Such funding
     would provide VSP with the flexibility to adjust to changing risks
     or opportunities at potential sites and to continue planned
     deployments after surmounting extended delays. We support this
     proposal.

     The deployment process for establishing a new VSU varies
     depending on whether ICE Operations has an established presence

U.S. Immigration and Customs Enforcement Visa Security Program 


                           Page 18

     at post. If ICE is not currently present at a post, the process
     requires more effort from ICE OIA headquarters. In the past, ICE
     OIA arranged for office furniture, computers, and system access at
     a new VSU post, but occasionally deployed VSU personnel prior
     to the arrival of the office equipment. Now, ICE OIA ensures
     office equipment has arrived prior to deploying VSU personnel.
     VSP sends a forward team of VSP headquarters or experienced
     VSU personnel from existing VSUs to establish the new VSU.
     The team sets up the VSU office space and works with DOS
     consular officers to define how visa security activities will be
     incorporated into the existing consular adjudication process at the
     post.

     Selecting and Deploying the Right Agents

     ICE OIA selects experienced agents with expertise in immigration
     and nationality law, investigations, document examination,
     counterterrorism, and intelligence research to serve in VSUs
     abroad. On average, agents have 10 years of law enforcement
     experience. VSP uses a competitive recruiting process to select the
     best-qualified candidates for VSU positions. The ICE OIA shift
     out of the ICE Office of Investigations removed an approval layer
     for selecting personnel, which has made the selection process
     faster for permanent positions. Once selected, the agent must
     complete DOS predeployment requirements and ICE VSU
     training, and be released by his or her current Special Agent in
     Charge before deploying to the assigned overseas post.

     VSP management expects many future VSU deployments will
     include locations in high security risk areas with difficult living
     conditions. These types of positions could be difficult to fill. A
     senior VSP official said the ICE Assistant Secretary recently
     approved an incentive package to help future recruiting efforts and
     ensure positions continue to be filled with the best qualified
     officers. ICE OIA is developing rules for the use of the incentives
     and, once approved, VSP will use incentives to recruit for hard-to-
     fill positions as necessary.

     In addition to filling permanent VSU positions, VSP is building a
     pool of trained agents to be available for temporary duty
     assignments to cover leave, training, and gaps between permanent
     agents at any VSU. When VSP program managers identify a
     temporary duty assignment need, they query the pool of trained
     agents for interest and expected availability for the assignment. A
     VSP program manager then requests that the Special Agent in
     Charge of the selected agent’s permanent office release the agent

U.S. Immigration and Customs Enforcement Visa Security Program 


                           Page 19

     for temporary duty. To encourage Special Agents in Charge to
     release a VSU-trained agent for a temporary duty assignment, VSP
     requests that Special Agents in Charge agree to release an agent for
     a future VSU temporary duty assignment at the time the agent’s
     request to attend the ICE VSU training course is approved.
     Occasionally, due to domestic mission requirements, Special
     Agents in Charge of some offices have been unable to release
     VSU-trained agents for temporary assignments. VSP management
     said that so far, this has not been an issue and that program
     managers have been able to find other agents to fill the
     assignments.

     Visa Security Program Expansion Depends on Chief of
     Mission Approval

     VSP expansion is dependent on a post’s ambassador approving the
     addition of permanent employees to the post to perform visa
     security activities. During site assessment trips and the NSDD–38
     process, VSP officials interact with DOS officials to promote the
     program and respond to concerns about how the program will fit
     into the post’s mission.

     NSDD–38 requires that agencies seeking new positions at a post
     request approval for each new position from the post’s chief of
     mission. In making a decision, the ambassador considers DOS
     rightsizing efforts and security issues. He or she also weighs the
     post’s limited ability to host a larger workforce given space
     constraints—severe at many embassies—and competing requests
     from other agencies.

     Several DOS officials at VSU posts we visited said they have
     responded positively to questions from counterparts at other posts
     at which opening a new VSU was being considered. However, if
     an ambassador decides not approve a VSU at his or her post, the
     NSDD–38 could be denied at that post, even though Section 428
     authorizes the program at each visa-issuing diplomatic or consular
     post unless the DHS Secretary determines that assigning personnel
     to a specific post would not promote homeland security. Four
     chiefs of mission have denied VSP expansion to their respective
     posts. An agency can formally appeal an ambassador’s denial of
     an NSDD–38 request to the Secretary of State. ICE initiated
     formal NSDD–38 resolution procedures with the DOS Under
     Secretary for Management for one post in November 2005; the
     NSDD–38 request for that post was denied. Based on information
     received during this process, DHS did not formally appeal the
     NSDD–38 denial to the Secretary of State. We were told that ICE

U.S. Immigration and Customs Enforcement Visa Security Program 


                           Page 20

            has informally appealed other NSDD–38 denials as well.
            Regardless, both ICE and DOS headquarters officials said that in
            reality, the ambassador makes the final decision on expanding
            positions at post.

            Although word of mouth about VSP reportedly is becoming more
            positive by DOS overseas, DOS occasionally sets conditions on the
            VSU that fall outside of the parameters of the DHS-DOS
            memorandum of understanding. VSP officials said they continue
            to coordinate with DOS at these posts to address concerns and try
            to move forward with VSP expansion.


Visa Security Program Should Enhance Performance
Measurement
     Visa security activities performed by the VSUs produce a number of law
     enforcement and counterterrorism results, which are tracked and reported
     by VSP headquarters. VSP uses three methods to track and report
     program activities and performance, including the VSP Tracking System.
     While the VSP Tracking System facilitates VSU activities and tracks
     performance, the tracking system has limitations that keep VSP
     management from fully analyzing VSU activities. In addition, VSP
     management does not verify that agents’ entries are standardized and
     accurate.

            Visa Security Program Tracks and Reports Activities and
            Results

            VSU activities produce several law enforcement and
            counterterrorism results. For example, agents recommend refusal
            of visas, create lookouts and subject records in law enforcement
            and other government databases, and nominate individuals as
            appropriate for entry onto watchlists. In addition, ICE special
            agents assigned to VSUs identify trends and tactics used by
            potential terrorists or criminals, create intelligence reports, initiate
            investigations, support domestic ICE investigations, and remove
            inaccurate derogatory information from law enforcement systems.

            The VSP uses three primary methods to track and report VSU
            activities and performance. First, overseas VSU posts report
            significant cases and activities in weekly operational reports using
            the existing ICE operational reporting structure. As appropriate,
            significant VSU activities are included in reports to the Assistant
            Secretary.


       U.S. Immigration and Customs Enforcement Visa Security Program 


                                  Page 21

     Second, agents assigned to VSUs use TECS to record
     enforcement-related activities, including cases opened and closed,
     lookouts and subject records, reports of investigations, leads
     generated, and hours spent working on a variety of activities such
     as supporting existing investigations. Agents use VSU-specific
     codes to identify their activities in TECS as VSU activities. We
     were told that management officials are able to review VSU
     activities in TECS by individual VSU or by VSP as a whole, but
     that these reports are reviewed infrequently.

     Finally, because existing systems, such as TECS, could not support
     some of the operational requirements of VSP activities, VSP
     developed the VSP Tracking System. The VSP Tracking System
     facilitates routine automated screening functions related to visa
     applicants, allows agents to record their activities, and captures
     VSP performance data for analysis and reporting.

     VSP Tracking System Facilitates Activities; Records
     Performance

     ICE special agents use the VSP Tracking System to keep track of
     their activities; record comments, concerns, and the results of their
     screening and vetting activities; and report accomplishments. In
     addition, the VSP Tracking System includes tools that minimize
     manual work and data entry by agents. For example, using an
     automated tool in the DOS Consular Consolidated Database, ICE
     special agents at VSUs receive visa applicant data from the
     Consular Consolidated Database in the VSP Tracking System to
     begin the screening process. The VSP Tracking System then
     automatically converts the data into a new format allowing agents
     to export applicant data to TECS for screening.

     The applicant summary area of the VSP Tracking System
     automatically records the imported visa applicant data and the
     results of the DOS visa adjudication, including the consular
     officer’s interview comments and decision to approve or deny the
     visa. Agents record their screening and vetting activities and
     decision for each applicant in the vetting worksheet portion of the
     tracking system. The vetting worksheet provides sections for
     agents to record their activities, such as document review, system
     checks, or interviews, as well as a section for recording comments
     about their findings and resolution of alerts or derogatory
     information on an applicant. Finally, agents record their decision
     to recommend that a visa be approved or denied, and when denied,
     the reason for denial on the vetting worksheet within the VSP
     Tracking System.

U.S. Immigration and Customs Enforcement Visa Security Program 


                           Page 22

     In addition, each VSU uses the VSP Tracking System to aggregate
     and create a monthly statistical report of its activities and
     performance metrics, which is sent to VSP headquarters. VSP
     headquarters officials said they review the monthly reports to
     assess and manage workload and staffing levels, track progress,
     and report performance to senior ICE officials and oversight
     entities.

     VSP Tracking System Limits Analysis of Visa Security Unit
     Activities

     Limitations of the VSP Tracking System keep VSP management
     and agents in the field from fully analyzing VSU activities. The
     VSP Tracking System is a stand-alone database at each VSU. ICE
     special agents at VSUs said that being able to view activities of
     other VSUs in the VSP Tracking System would better inform their
     own activities and make it possible to analyze trends and patterns
     across posts at the field level. Also, as stated earlier, it is difficult
     for VSP management to monitor or analyze the full range of VSU
     performance because VSP headquarters cannot access post data
     through the VSP Tracking System, and VSU monthly reports
     contain only aggregate data on selected performance measures.

     In addition, it is a significant impediment that the data file used by
     the VSP Tracking System at each post can hold only a finite
     number of records. Once the capacity of the data file is reached,
     the VSU creates another copy of the database. Depending on the
     volume of applicants at a given VSU—2,000 per day at one VSU;
     100 per day at another—VSUs reach the maximum number of
     records over different periods of time. Each VSU ultimately must
     maintain multiple versions of the database. VSU officials said
     they have identified trends and patterns at their posts, but that it
     was difficult to use the VSP Tracking System to conduct the
     analysis due to the fragmentation of their data among multiple
     copies of the database.

     Several VSP officials said they would like to see a tracking system
     that would allow both VSP headquarters and field personnel to
     access VSU data from all posts. A senior VSP official said that
     senior ICE officials should also be able to access the system. VSP
     headquarters officials said they are in the early stages of
     developing requirements for a new system; however, most VSU
     officials in the field said they did not know that a new system is
     planned. We agree that a new tracking system would benefit the
     operations and performance measurement of visa security

U.S. Immigration and Customs Enforcement Visa Security Program 


                           Page 23

     activities. Including the system’s end users in determining system
     requirements would help ensure the system will fulfill the needs of
     both headquarters and field personnel.

     We recommend that the Assistant Secretary for Immigration and
     Customs Enforcement:

     Recommendation #3: Develop and implement a global data
     system to allow recording, search, analysis, and storage of visa
     security activities from all Visa Security Units. The system should
     be accessible by headquarters and field personnel and should
     generate the reports that managers require to manage and improve
     the Visa Security Program.

     Visa Security Program Management Should Verify Standard
     and Accurate Recording of Visa Security Activities

     When VSP headquarters receives the monthly performance reports
     from each VSU, headquarters officials review the data for
     completeness. VSP officials said they ensure that all required
     fields are filled and that the statistics reported by each post do not
     appear to be significantly or unexpectedly different from that
     post’s reports for previous months. However, headquarters
     officials cannot be assured that posts are recording their activities
     accurately or in a standard manner

     ICE special agents receive training on the VSP Tracking System
     during the VSU training course. Included in the training is a
     discussion on recording screening and vetting activities and
     findings on the vetting worksheet. The August 2007 course, which
     we observed, briefly covered the fields on the vetting worksheet
     but did not explain specifically which fields should be checked for
     specific activities or how specific activities should be recorded.
     Rather, course participants were told they could use the “Help”
     button next to each field to see an explanation of when that field
     should be used. When we reviewed the help buttons on the vetting
     worksheet in the VSP Tracking System, several buttons did
     provide more detailed information on when to use the field, such as
     “In-Depth System Check.” Other buttons, such as “Cleared
     Applicant,” were not set up or were open to interpretation
     regarding when to use the field.

     At the VSUs we visited, agents provided slightly different
     explanations of where screening ends and vetting begins at each
     post. Some explanations differed from the explanation given at the
     VSU training course. According to the VSU training instructors,

U.S. Immigration and Customs Enforcement Visa Security Program 


                           Page 24

     screening ends after the initial TECS screening of visa applicants,
     and vetting begins when agents examine the applicant’s
     information or resolve concerns about the applicant. In addition,
     VSU field personnel said that different VSUs complete some fields
     in the vetting worksheet differently. For example, one VSU
     official said that three VSUs held a conference call and discovered
     that each had been completing the “Cleared Applicant” field
     differently. Their discussion clarified the purpose of the field.
     Different interpretations of vetting worksheet fields could lead to
     differences in how visa security activities are recorded, thus
     undermining the accuracy or reliability of the information.

     We also observed visa security activities being recorded differently
     at the VSUs we visited. For example, at one post, agents decided
     to record in the tracking system information only on recommended
     denials rather than all applicants who were vetted. At another post,
     several fields were set as defaults so they would always be checked
     on the vetting worksheet, such as “In-Depth System Check.”
     However, a VSU official at one post said that in-depth checks
     involved more extensive checks at one post and less extensive
     checks at another post. In addition, some posts added brief notes
     to explain findings and resolutions while others added notes much
     more sparingly. Neither method is incorrect; however, a more
     completely documented entry is generally more valuable.

     Detailed guidance for recording screening and vetting activities
     would set clear expectations of the information that should be
     entered in each field on the vetting worksheet. Such procedures
     also would decrease instances of individual posts determining how
     to record their activities and which activities to record. By
     establishing a process to verify that posts are following the
     guidance, VSP management would reduce any questions regarding
     the validity or reliability of VSP performance data.

     We recommend that the Assistant Secretary for Immigration and
     Customs Enforcement:

     Recommendation #4: Develop detailed guidance to clarify
     expectations for recording Visa Security Unit activities in the VSP
     Tracking System and to ensure all Visa Security Units record the
     same activity the same way.

     Recommendation #5: Disseminate and provide training on the
     guidance to Visa Security Unit personnel to implement and
     reinforce expectations for recording Visa Security Unit activities in
     the VSP Tracking System.

U.S. Immigration and Customs Enforcement Visa Security Program 


                           Page 25

            Recommendation #6: Develop and implement a plan to verify
            that ICE personnel are complying with expectations for and are
            accurately recording Visa Security Unit activities.


Visa Security Officer Training Prepares Agents for Deployment
     Prior to deployment, ICE special agents attend the Visa Security Officer
     Training Program at the Federal Law Enforcement Training Center
     (FLETC). The course, which lasts 3 to 4 weeks, covers topics that prepare
     experienced special agents to deploy to VSUs at overseas posts. Topics
     include the visa process, counterterrorism, terrorist trends and tactics,
     fraudulent documents, national security law, interviewing techniques, and
     presentation skills. Students also receive hands-on instruction and practice
     on a variety of law enforcement information systems and the VSP
     Tracking System, including visa applicant screening and vetting
     procedures. The course concludes with a typical day scenario, which
     provides students the opportunity to practice visa security functions.
     Agents complete their training on the job after they arrive at their
     individual posts.

     VSP headquarters officials instruct course participants on visa applicant
     screening and vetting procedures and the VSP Tracking System. During
     the August 2007 course session, we observed in-depth coverage of visa
     applicant screening procedures from retrieving applicant information from
     the Consular Consolidated Database to screening applicants through TECS
     and receiving potential matches.

     However, instruction on vetting an applicant and accurately recording
     vetting results in the VSP Tracking System was covered in less depth. For
     example, multiple step-by-step examples of downloading applicant
     information from DOS and running the information through TECS were
     demonstrated, but instructors did not follow these examples through the
     vetting process or recording of results in the VSP Tracking System.
     Several course participants said that seeing course instructors complete the
     entire screening and vetting process for a few visa applicants before they
     began the typical day scenario would have been helpful.

     Both recent and past participants in the Visa Security Officer Training
     Program said the course is good preparation for performing VSP
     functions, and that VSP management has been responsive to suggestions
     for changes to future sessions of the course. For example, the August
     2007 session added training on interview techniques following suggestions
     from several past participants of the course. Several August 2007 trainees
     offered their suggestions for improving the course to VSP headquarters

       U.S. Immigration and Customs Enforcement Visa Security Program 


                                  Page 26

officials both during a class session and in written evaluations at the end
of the course. VSP headquarters officials were receptive to in-course
suggestions provided by August 2007 participants. The officials said that
several suggestions, such as increasing the time spent on the VSP
Tracking System or spreading instruction on screening and vetting
procedures more evenly throughout the course, were under consideration
for future sessions.

Based on suggestions of trainees and to address program changes and
changing terrorist tactics, VSP management regularly adjusts the content
of the course by adding or removing course sections. We were able to
review binders containing the course curriculum for past sessions, but the
course curriculum for the most recent session was undocumented. A VSP
headquarters official said that personnel rotations resulted in the loss of
electronic versions of past course curricula, and that VSP headquarters is
in the process of updating and documenting the current course curriculum.
A documented course curriculum, which includes the goals and objectives
of each course section, would facilitate instructor and class speaker
preparation. VSP should complete the documentation of the course
curriculum and continue to update the curriculum as changes are made to
future sessions.

ICE special agents do not usually receive language training prior to
deploying to an overseas post, as supported by Section 428. However, at
the five VSU posts we visited, we observed that not having foreign
language skills did not appear to hinder agent performance of visa security
activities. At some posts, most interviews were conducted in English, or
ICE had selected an agent with existing language skills for that country.
At other posts, a consular officer or locally engaged staff member attended
the interview and translated as necessary. In addition, senior VSP officials
said that for posts requiring language skills, they either select an agent
with existing skills or provide language training prior to deployment.

In addition to the Visa Security Officer Training Program at FLETC, ICE
special agents assigned to permanent positions at overseas posts attend
ICE OIA Outbound Orientation prior to deployment. This 3-day session
provides deploying ICE personnel with a series of briefings on ICE
operations overseas, reporting requirements, what to expect when living
overseas, and the administrative support they will receive from ICE OIA
headquarters. The session also gives participants an opportunity to meet
their individual country desk officers and ICE OIA mission support
personnel. As required by DOS, permanently deploying ICE personnel
also attend the DOS Safety Overseas Seminar, which addresses issues
faced by U.S. officials living overseas.



  U.S. Immigration and Customs Enforcement Visa Security Program 


                             Page 27

     We recommend that the Assistant Secretary for Immigration and Customs
     Enforcement:

     Recommendation #7: Document the current course curriculum for the
     Visa Security Officer Training Course and update it as changes are made.


Management Comments and OIG Analysis
     ICE responded to each of the recommendations in our draft report. See
     Appendix B for ICE’s response. Of the seven recommendations in our
     report, one recommendation is resolved and open; the remaining six
     recommendations are resolved and closed.

     In addition, we received two responses from DOS. The responses from
     the DOS Office of Policy, Rightsizing, and Innovation and the Bureau of
     Consular Affairs appear in full in Appendix C. We also received technical
     comments from the DOS Bureau of Diplomatic Security and have made
     changes to the report as appropriate. Our analysis of the DOS responses
     follows our analysis of ICE’s response to the report recommendations.

     Recommendation #1: Develop and implement a plan to monitor and
     analyze case-specific visa security activities conducted at post and their
     effect on Visa Security Program results.

     Summary of ICE Response: ICE concurred with this recommendation
     and discussed the development of a new, centralized, and globally
     accessible tracking system, which will allow for case-specific analysis at
     posts. The current tracking system will be maintained and updated until
     the new tracking system is developed.

     OIG Evaluation: We concur with ICE’s plan to include the ability to
     conduct case-specific analysis in the new tracking system under
     development, as well as ICE’s interim plan to monitor and analyze case-
     specific activities using the current tracking system. This recommendation
     is resolved and closed. No further reporting is necessary.

     Recommendation #2: Develop a detailed, factor-by-factor explanation of
     the process for analyzing the quantitative and qualitative factors in the site
     selection process from the initial risk analysis through site selection,
     including source(s) for each factor and how the score for each factor is
     calculated.

     Summary of ICE Response: ICE concurred with this recommendation.
     ICE VSP has reviewed the site selection process, making changes to the
     categories and criteria included and refreshing data. This process will

       U.S. Immigration and Customs Enforcement Visa Security Program 


                                  Page 28

occur at the end of each fiscal year. ICE will continue to use well-
established information sources, and will incorporate classified
information into the selection process as appropriate. In addition, VSP is
coordinating with the DOS Office of the Coordinator for Counterterrorism
to further refine the site selection process.

OIG Evaluation: We concur with the actions taken by ICE. This
recommendation is resolved and closed. No further reporting is necessary.

Recommendation #3: Develop and implement a global data system to
allow recording, search, analysis, and storage of visa security activities
from all Visa Security Units. The system should be accessible by
headquarters and field personnel and should generate the reports that
managers require to manage and improve the Visa Security Program.

Summary of ICE Response: ICE concurred with the recommendation.
ICE has allocated funding to develop a centralized and globally accessible
tracking system. ICE VSP is working with the ICE Office of the Chief
Information Officer to develop the new tracking system.

OIG Evaluation: We concur with ICE’s actions to begin development of
a centralized and globally accessible tracking system. This
recommendation is resolved, but will remain open pending the completion
of the new tracking system.

Recommendation #4: Develop detailed guidance to clarify expectations
for recording Visa Security Unit activities in the VSP Tracking System
and to ensure all Visa Security Units record the same activity the same
way.

Summary of ICE Response: ICE concurred with the recommendation.
In September 2007, ICE VSP sent guidance clarifying visa security
activity recording procedures and expectations to all VSU posts.

OIG Evaluation: We have reviewed the September 2007 guidance, and
concur that it clarifies recording procedures and VSP headquarters
expectations. This recommendation is resolved and closed. No further
reporting is necessary.

Recommendation #5: Disseminate and provide training on the guidance
to Visa Security Unit personnel to implement and reinforce expectations
for recording Visa Security Unit activities in the VSP Tracking System.

Summary of ICE Response: ICE concurred with the recommendation.
In addition to the guidance sent to posts in September 2007, ICE VSP
distributed detailed screen shots from the VSP Tracking System that

  U.S. Immigration and Customs Enforcement Visa Security Program 


                             Page 29

instruct VSU personnel on how to accurately record VSU activities. In
addition, ICE VSP is incorporating a step-by-step training module into the
VSO Training Program at FLETC.

OIG Evaluation: We concur with the actions taken by ICE. This
recommendation is resolved and closed. No further reporting is necessary.

Recommendation #6: Develop and implement a plan to verify that ICE
personnel are complying with expectations for and are accurately
recording Visa Security Unit activities.

Summary of ICE Response: ICE concurred with this recommendation.
As part of its Site Inspections Program, ICE OIA will conduct regular
checks to identify tracking inconsistencies and provide necessary
guidance.

OIG Evaluation: We concur with ICE’s action plan. This
recommendation is resolved and closed. No further reporting is necessary.

Recommendation #7: Document the current course curriculum for the
Visa Security Officer Training Course and update it as changes are made.

Summary of ICE Response: ICE concurred with the recommendation
and described steps taken to update the course curriculum and to ensure
that future curriculum changes are made as necessary.

OIG Evaluation: We concur with the actions taken by ICE. This
recommendation is resolved and closed. No further reporting is necessary.

Analysis of the Department of State Responses

We appreciate receiving responses to our report from DOS. We note that
we invited DOS OIG to participate in this review; however, after
participating in our interviews during our first VSU site visit, DOS OIG
decided not to participate further in the review. Therefore, we limited the
scope of our review to ICE activities with regard to the VSP.

Because ICE special agents interact regularly with DOS personnel and
processes when performing VSP activities, we attempted to provide basic
descriptions of the various programs and DOS personnel with which ICE
special agents interact. We acknowledge that many of the DOS programs
and personnel have responsibilities beyond what we describe; however,
we chose to discuss activities relevant to interactions between ICE and
DOS with regard to the VSP. To review DOS programs or personnel
would be outside of our authority.


  U.S. Immigration and Customs Enforcement Visa Security Program 


                             Page 30

Office of Policy, Rightsizing, and Innovation

The DOS Office of Policy, Rightsizing, and Innovation expressed concern
with the VSP Five-Year Expansion Plan and that DOS had not had the
opportunity to review the plan. Much of the plan is summarized in pages
15-18 of our report. The ICE Assistant Secretary, DHS headquarters, the
White House Homeland Security Council, and the Office of Management
and Budget have reviewed and approved the plan. In March 2007, the
plan was delivered to DOS Consular Affairs, and in July 2007, it was
delivered to the DOS Office of the Coordinator for Counterterrorism for
review.

The office also indicated that it believed our report should have provided
specifics about the posts at which DHS wished to open visa security units
but where DOS disagreed. While we believe our report describes the
issue, we do not want to insert ourselves into the specifics of debates
which occurred in the past. Neither do we agree with the proposition
expressed in their response that a visa waiver country is necessarily
outside the scope of the visa security program. Many visas are processed
in visa waiver countries, including to third-country nationals from
countries of concern.

Policy, Rightsizing, and Innovation also expressed concern with involving
DOS employees in the interview process “who are not allowed access to
the information contained in the database that precipitated and supports
the interview requirement.” First, ICE special agents may decide to
interview a visa applicant based on information from sources other than
TECS. Second, at most VSUs, ICE special agents must explain to the
consular officer or section chief why they want to bring the visa applicant
in for an interview. ICE special agents assigned to one VSU were not
allowed to conduct their interview with the visa applicant; rather, the
adjudicating consular officer was required to conduct the interview while
the ICE special agent observed. At most other VSUs we visited, if
language translation was necessary, the ICE foreign service national
investigator assisted, not DOS locally engaged staff.

Finally, the Office of Policy, Rightsizing, and Innovation wrote that DHS
assigns “personnel who are not authorized to perform the depth and
variety of responsibilities that would facilitate immigration and refugee
decisions….” This complaint, which we have also heard in the field,
suggests a misunderstanding of the structure of DHS. The work that was
formerly performed by the U.S. Immigration and Naturalization Service is
now performed by three organizations: U.S. Citizenship and Immigration
Services, ICE, and U.S. Customs and Border Protection. Employees of
any one component are neither authorized nor properly trained to perform
functions that fall within the purview of the other two. DHS employees

  U.S. Immigration and Customs Enforcement Visa Security Program 


                             Page 31

who can perform only a limited variety of immigration responsibilities are
a result of the legislation that created the department.

Alternatively, Consular Affairs believes ICE VSP has inappropriately
expanded the roles and authorities of agents assigned to VSUs. All ICE
special agents are authorized to enforce specific areas of law and maintain
these responsibilities when posted overseas. Agents assigned to VSUs
also maintain these authorities, but are required to spend at least 80% of
their time on visa security activities.

Bureau of Consular Affairs

Consular Affairs provided comments on several areas of our report.
Where appropriate, we have made changes to the language of our report.
Our analysis of their comments follows.

Consular Affairs suggests that we make a recommendation that DHS
prioritize the NSDD–38 requests of its various components, including
ICE. This has been occurring since 2004. DHS Management Directive
3400 requires that all DHS component requests for new positions abroad
be approved by the DHS Deputy Secretary before they are submitted to
the Department of State.

Consular Affairs’ belief that we imply the chief of mission decides
whether to approve a VSU at post based on personal preferences indicates
a misreading of our report. Pages 8 and 20-21 of our report shows that we
indicate agencies seeking new positions at post must request approval
from the post’s chief of mission using the NSDD–38 process. We also
note a number of criteria the chief of mission considers in determining
whether to approve the request, including space, costs, and security issues.
However, as DOS headquarters and post personnel, ICE OIA personnel,
and even the Consular Affairs response indicate, VSP expansion does, in
fact, depend on chief of mission approval. VSP management continues to
collaborate with DOS in gaining the chief of mission’s approval as it
expands the program to additional locations.

Consular Affairs also questions our statement that “DOS occasionally sets
conditions on the VSU that fall outside of the parameters of the DHS-DOS
memorandum of understanding.” The DHS-DOS memorandum of
understanding delineates the roles and responsibilities of both departments
regarding the visa issuance process and visa security activities, as well as
their coordination at overseas posts. However, at least two posts
attempted to establish separate agreements outlining how the process
would work and how the two departments would coordinate at those posts.
VSP officials worked with DOS officials at each post to resolve the issues
and successfully opened VSUs at both posts. As we note on page 27, ICE

  U.S. Immigration and Customs Enforcement Visa Security Program 


                             Page 32

provides language training or selects an agent with pre-existing language
skills for those posts with specific language requirements.

Consular Affairs interpreted our original draft language relating to start-up
difficulties to imply that DOS had not provided necessary office
equipment to new VSUs. We have reworded the discussion of ICE OIA’s
deployment process on page 19 of our report to avoid confusion.

Consular Affairs also expressed concern with the VSP mission and goals
and with the program’s explanation of how law enforcement expertise is
applied to the visa process. Consular Affairs states that the VSP mission
and goals expand its authority beyond Section 428. We disagree with this
assertion. A program’s mission statement typically goes beyond quoting
the specific language of the law authorizing the program. VSP’s mission
and strategic goals can be tied to the language of Section 428. We did not
observe ICE special agents assigned to VSUs or VSP headquarters
expanding the scope of their authorities during our fieldwork. As noted
earlier, ICE special agents are authorized to enforce several U.S. statutes,
and they draw on these and their law enforcement experience in screening
and vetting visa applicants, creating lookouts, and initiating investigations
in the performance of their visa security responsibilities.

ICE special agents assigned to VSUs do not adjudicate visa applications.
They screen and vet visa applicants and evaluate eligibility from the DHS
perspective, and then recommend approval or denial to the adjudicating
consular officer. In addition, VSP management approves each post’s case
selection guidelines. At VSUs we visited, several consular officers
indicated a general understanding of the types of applicants the VSU
would be interested in vetting.

Consular Affairs indicated that a major impediment to program expansion
is “a lack of persuasive evidence of the value of the program.” While VSP
management has tracked a variety of performance measures, reports have
not been produced to show how specific activities performed by agents at
post have resulted in specific outcomes. We recommend that VSP
develop and implement a plan to conduct such analysis in
Recommendation 1 of our report.

Consular Affairs implies that consular officers conduct the same type of
screening and vetting that ICE special agents assigned to VSU perform.
This is not the case. ICE agents conduct much more in-depth checks on
visa applicants than do consular officers. For example, consular officers
run system checks on the visa applicant’s name only; ICE agents would
also run system checks on additional information provided on the visa
application itself, such as associates or addresses.


  U.S. Immigration and Customs Enforcement Visa Security Program 


                             Page 33

Consular Affairs also suggests that VSP should conduct the automated
screening activities domestically and incorporate the screening into the
SAO process. As noted in our report, we disagree. The initial screening
could technically be done from anywhere—as could the name-checking
performed by consular officers—but the vetting process requires that
agents be assigned to post in order to have access to the applicant and the
application documents. In addition, VSUs screen 100% of nonimmigrant
visa applicants and many also screen at least a portion of immigrant visa
applicants. To incorporate this into the SAO process would essentially
require an SAO for every visa applicant, which would create significant
delays to the consular visa adjudication process.

Consular Affairs indicated a desire to receive reports on VSU activities
and access to the new tracking system being developed by the VSP and we
fully support that request. VSP management said they plan to provide
access to additional parties, including relevant DOS personnel. We expect
VSP management will continue to collaborate with DOS in this area. We
do not believe the recommendation needs to be reworded.

Consular Affairs also indicated concern that some information on
terrorists or criminals is not automatically transferring from TECS into the
Consular Lookout and Support System. TECS is not simply a database of
law enforcement information on terrorists and criminals. It also serves as
a case management system for ICE and, therefore, contains information on
sensitive active investigations and ongoing cases. Information on open
investigations would not be routinely released to outside systems.

Consular Affairs said there is a “common understanding” that a significant
portion of VSU denial recommendations are not terrorism related. VSP
management recently required VSU personnel to begin recording the
reason for denial recommendations in the VSP Tracking System when
they recommend that a specific visa application be denied. As Consular
Affairs noted earlier in its comments, the process of adjudicating visa
applications is “firmly grounded in law” and is the responsibility of
consular officers. However, it could be useful if the immigration
professionals in a Visa Security Unit sometimes convey non-terrorist
information they develop to consular officers, who then properly deny an
application they might otherwise have approved.

Consular Affairs indicated they had seen few examples of VSU personnel
providing expert advice and training on specific security threats. Section
428(e)(2)(A) refers to security threats “relating to the adjudication of
individual visa applications or classes of applications.” As we discuss in
our report, terrorists use fraudulent means to attempt to gain entry into the
United States. VSU personnel have provided training to consular officers
to improve their ability to detect instances of such fraud, including how to

  U.S. Immigration and Customs Enforcement Visa Security Program 


                             Page 34

identify imposters and fraudulent documents. They have also provided
advice, as appropriate, to consular officers at specific posts where fraud
trends in specific visa categories have been identified. VSU personnel
report the number and topics of training provided as well as the number of
attendees in their monthly reports to VSP headquarters.

Consular Affairs also questioned the extent to which ICE special agents
assigned to VSUs have expertise or training in counterterrorism. In
selecting agents for assignment to VSUs, ICE OIA selects agents with
experience in counterterrorism as well as immigration and other areas. On
average, agents assigned to VSUs have 10 years of law enforcement
experience. In addition, agents receive counterterrorism briefings as part
of the Visa Security Officer Training Program they attend at FLETC prior
to deploying to a VSU.

Consular Affairs suggested adding terrorist threat indicators to the initial
risk assessment for site selection. As noted above, VSP program
managers regularly review and update the initial risk assessment, adding
and removing fields as appropriate. We do not believe an additional
recommendation is necessary.




  U.S. Immigration and Customs Enforcement Visa Security Program 


                             Page 35

Appendix A
Purpose, Scope, and Methodology

                    We reviewed the ICE Visa Security Program in response to DOS
                    OIG concerns of possible overlaps of responsibility between DHS
                    and DOS personnel at embassies where both are present.
                    Specifically, the objectives of our review were to determine
                    whether: (1) ICE’s management of VSP policies, procedures, and
                    existing operations is effective and efficient; (2) the interaction and
                    coordination at U.S. embassies among ICE special agents, DOS
                    regional security officers, and DOS consular officers is effective
                    and without overlaps in responsibilities; (3) the presence of ICE
                    special agents has affected visa security; (4) ICE special agents
                    need to be assigned overseas to perform VSP activities; and (5)
                    VSP training adequately prepares ICE special agents to perform
                    VSP duties. Finally, we examined VSP expansion plans to
                    determine whether the process for selecting new sites is prioritized
                    appropriately given the limited resources available for expansion.

                    We reviewed statutes, regulations, and memoranda of
                    understanding related to the VSP. We also reviewed strategic
                    plans, expansion plans, weekly reports, monthly reports and
                    performance data, budget records, and training materials. We
                    examined VSP procedures, guidance, and case files.

                    We conducted more than 85 interviews of more than 95 officials
                    within DHS OIA, ICE OIA, and DOS at headquarters and overseas
                    posts. We conducted overseas site visits to VSU posts in Manila,
                    Philippines; Islamabad, Pakistan; Abu Dhabi, United Arab
                    Emirates; Dubai, United Arab Emirates; and Cairo, Egypt. In
                    addition to interviews at posts, we observed the consular visa
                    process and VSU visa security activities. DOS OIG personnel
                    participated in our interviews during our first VSU site visit.

                    We audited the Visa Security Office Training Program at FLETC
                    in Glynco, Georgia during August 2007. We observed a VSP
                    briefing to a DOS consular class at the DOS Foreign Service
                    Institute. Finally, we observed an ICE OIA Outbound Orientation
                    session for ICE agents deploying to overseas posts.

                    Fieldwork began in March 2007 and ended in November 2007.
                    This review was conducted under the authority of the Inspector
                    General Act of 1978, as amended, and according to the Quality
                    Standards for Inspections issued by the President’s Council on
                    Integrity and Efficiency.




               U.S. Immigration and Customs Enforcement Visa Security Program 


                                          Page 36

Appendix B
Management Comments to the Draft Report




              U.S. Immigration and Customs Enforcement Visa Security Program 


                                         Page 37

Appendix B
Management Comments to the Draft Report




              U.S. Immigration and Customs Enforcement Visa Security Program 


                                         Page 38

Appendix B
Management Comments to the Draft Report




              U.S. Immigration and Customs Enforcement Visa Security Program 


                                         Page 39

Appendix B
Management Comments to the Draft Report




              U.S. Immigration and Customs Enforcement Visa Security Program 


                                         Page 40

Appendix B
Management Comments to the Draft Report




              U.S. Immigration and Customs Enforcement Visa Security Program 


                                         Page 41

Appendix C
Department of State Comments to the Draft Report




               U.S. Immigration and Customs Enforcement Visa Security Program 


                                          Page 42

Appendix C
Department of State Comments to the Draft Report




               U.S. Immigration and Customs Enforcement Visa Security Program 


                                          Page 43

Appendix C
Department of State Comments to the Draft Report




               U.S. Immigration and Customs Enforcement Visa Security Program 


                                          Page 44

Appendix C
Department of State Comments to the Draft Report




               U.S. Immigration and Customs Enforcement Visa Security Program 


                                          Page 45

Appendix C
Department of State Comments to the Draft Report




               U.S. Immigration and Customs Enforcement Visa Security Program 


                                          Page 46

Appendix C
Department of State Comments to the Draft Report




               U.S. Immigration and Customs Enforcement Visa Security Program 


                                          Page 47

Appendix C
Department of State Comments to the Draft Report




               U.S. Immigration and Customs Enforcement Visa Security Program 


                                          Page 48

Appendix C
Department of State Comments to the Draft Report




               U.S. Immigration and Customs Enforcement Visa Security Program 


                                          Page 49

Appendix C
Department of State Comments to the Draft Report




               U.S. Immigration and Customs Enforcement Visa Security Program 


                                          Page 50

Appendix C
Department of State Comments to the Draft Report




               U.S. Immigration and Customs Enforcement Visa Security Program 


                                          Page 51

Appendix D
Major Contributors to this Report


                    Douglas Ellice, Chief Inspector
                    Jennifer A. Lindsey, Inspector (Team Leader)
                    Susan Fischer, Inspector
                    Razili Datta, Inspector




               U.S. Immigration and Customs Enforcement Visa Security Program

                                          Page 52
Appendix E
Report Distribution


      Department of Homeland Security

      Secretary
      Deputy Secretary
      Chief of Staff
      Deputy Chief of Staff
      General Counsel
      Executive Secretary
      Director, GAO/OIG Liaison Office
      Assistant Secretary for Office of Policy
      Assistant Secretary for Office of Public Affairs
      Assistant Secretary for Office of Legislative Affairs
      Assistant Secretary for Immigration and Customs Enforcement
      ICE OIG Liaison

      Office of Management and Budget

      Chief, Homeland Security Branch
      DHS OIG Budget Examiner

      Congress

      Congressional Oversight and Appropriations Committees, as appropriate




                 U.S. Immigration and Customs Enforcement Visa Security Program 


                                            Page 53

Appendix E
Report Distribution




 Additional Information and Copies
 To obtain additional copies of this report, call the Office of Inspector General
 (OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
 site at www.dhs.gov/oig.


 OIG Hotline
 To report alleged fraud, waste, abuse or mismanagement, or any other kind of
 criminal or noncriminal misconduct relative to department programs or
 operations:

     •    Call our Hotline at 1-800-323-8603;
     •    Fax the complaint directly to us at (202) 254-4292;
     •    Email us at DHSOIGHOTLINE@dhs.gov; or
     •	   Write to us at:
            DHS Office of Inspector General/MAIL STOP 2600, Attention:
            Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
            Washington, DC 20528,

 The OIG seeks to protect the identity of each writer and caller.
